September 29, 1998


MICHAEL S. COUGHLIN
Deputy Postmaster General

NORMAN E. LORENTZ
Senior Vice President, Chief Technology Officer

SUBJECT: Year 2000 Initiative: Post Implementation Verification (IS-AR-98-003)


This report presents the results of our review of the USPS Year 2000 (Y2K) Initiative.
This report is the third in a series dealing with the Y2K initiative. During this review we
noted that the Post Implementation Verification process needed improvement.
Management agreed with our findings and recommendations. The corrective actions
taken or planned are responsive to the issues raised in our report.

The cooperation and courtesies provided by your staff during the audit were
appreciated.



Karla W. Corcoran

Attachment

cc: 	Thomas J. Koerber
     Kenneth C. Weaver
     Richard D. Weirich
     John R. Gunnels
                       USPS YEAR 2000 INITIATIVE:
                       Post Implementation Verification

                                     CONTENTS


                                                                          Page

Executive Summary                                                          1


Introduction                                                               3

Post Implementation Verification                                           5

    Post Implementation Verification (PIV) Effectiveness And Efficiency    6


Recommendations                                                            8

Appendix I PIV Code Sampling Plan                                          9


Appendix II Management Comments                                            10 





                                  Restricted Information
Year 2000 Initiative – Post Implementation Verification	                                  IS-AR-98-003


                                      EXECUTIVE SUMMARY 


Results in brief 	              The year 2000 (Y2K) problem results from the way in which computer
                                systems store and process dates. In many systems, the year 2000 will
                                be indistinguishable from 1900, thereby causing potential system
                                failures.

                                This is the third in a series of the Office of Inspector General (OIG)
                                reports regarding the Y2K initiative. Our first report addressed the
                                “Awareness” and “Assessment” phases of the USPS Y2K Initiative.
                                The second provided a preliminary assessment of the “Renovation,”
                                “Validation,” and “Implementation” phases. Additional information
                                on prior audit coverage is provided on page 4. As part of our audit
                                coverage of the USPS Y2K initiative, we were asked by the Y2K
                                Project Manager to provide a review of the Post Implementation
                                Verification (PIV) process for effectiveness and efficiency. This
                                report addresses aspects of that process.

                                Remediation of systems applications for Y2K compliance primarily
                                rests with USPS business managers and project leaders. The
                                application project leaders are responsible for certifying that all
                                application code has been reviewed for date implications, remediated,
                                tested, and documented accordingly. The Portfolio Manager certifies
                                the application as Y2K compliant and sends the certification to the
                                Project Management Office (PMO). The PMO then initiates the PIV
                                process.

                                The PIV process, instituted by the PMO, is an independent verification
                                of the Y2K remediation1 process to ensure that USPS systems
                                applications are Y2K compliant and will operate correctly in the year
                                2000 and beyond. The PMO is responsible for the oversight of the
                                contractors performing PIV.

                                The tasks that constitute PIV were developed by the USPS PMO and
                                contractor staff and are being carried out by contractor personnel
                                experienced in code review and conversion. The PIV has increased
                                Y2K accountability by requiring USPS managers to submit all of their
                                severe and critical applications for verification. However, the PIV
                                process could not provide reasonable assurance that all severe and
                                critical applications (166) would be independently verified before the
                                Year 2000. This conclusion is based upon the fact that (a) Portfolio
                                managers have certified and submitted applications for PIV without
                                complete documentation; (b) applications were not submitted in a
                                timely manner; and (c) all source code that had been reviewed in
                                remediation was being reviewed again in PIV. In addition, there
1
    A process whereby USPS systems applications are corrected in order to make them Y2K compliant.

                                                         1
                                              Restricted Information
Year 2000 Initiative – Post Implementation Verification	                         IS-AR-98-003


                             remains approximately 400 noncritical application systems that need
                             to be remediated before their projected failure dates.

                             The PMO originally hired only one contractor to perform PIV.
                             However, recognizing the enormity of the PIV task, the PMO hired
                             two additional contractors in June 1998. We believe there are
                             additional procedures, such as selective statistical sampling of source
                             code, that have not been considered that could further expedite the
                             PIV process.

                             Taking timely action to implement our recommendations would allow
                             USPS PIV contractors to process severe and critical application
                             systems more quickly and help USPS identify application systems
                             problems before a serious date-related failure occurs. See Appendix I
                             for a statistical sampling plan that may be used on this project.

Recommendations 
 The Vice President, Information Systems should direct
                             Portfolio Managers to:

                             1. 	 Certify and submit applications within 30 days of being remediated
                                  and tested.

                             2. 	 Ensure applications include all required documentation before
                                  being certified.

                             3. 	 Direct contractors to (a) help USPS remediation teams develop
                                  adequate Y2K test plans and remediation documentation and (b)
                                  assist in the correction of applications sent back from PIV.

                             The Vice President, Information Systems should also direct
                             the PMO to:

                             4. 	 Reject application systems that are submitted without complete
                                  Y2K test plans and documentation and formally notify the
                                  responsible Vice President and Chief Information Officer (CIO)
                                  that the application was rejected.

                             5. 	 Develop and implement a statistical sampling plan for reviewing
                                  application code as soon as test plans and documentation become
                                  more acceptable.

Management 	                 The Deputy Postmaster General concurred with all findings and
Comments                     recommendations included in this report and has planned or taken
                             corrective actions to improve USPS' efforts to meet the Year 2000
                             challenge.


                                                      2
                                           Restricted Information
Year 2000 Initiative – Post Implementation Verification	                        IS-AR-98-003



Evaluation of 	              The corrective actions USPS management has planned in response to
Management                   our recommendations are appropriate and, when fully implemented,
                             should respond adequately to the recommendations.
Comments 	

                                         INTRODUCTION
                             The Y2K problem results from the way dates are recorded and
                             calculated in computer systems. In the past, to conserve electronic
                             data storage, systems have typically used two digits to represent the
                             year, such as “98” representing 1998. With this two-digit date format,
                             however, the year 2000 is indistinguishable from 1900, 2001 from
                             1901, and so on. As a result of this ambiguity, application systems
                             that use dates to perform calculations may fail after 1999.

                             The USPS manages over 600 application systems related to internal
                             and external operations. The application systems provide for critical
                             tasks and encompass a wide variety of platform designs, operating
                             systems, and programming languages.

                             The USPS conducts renovation, validation, testing, and certification of
                             its systems applications to ensure Y2K compliance. The
                             responsibility to ensure that application systems are Y2K compliant
                             remains with the USPS business managers, system Project Leader,
                             and Portfolio Manager. The PIV program is directed by the Y2K
                             PMO, which has the responsibility for overall verification of systems
                             applications. The PMO determined it was necessary to establish a
                             review of systems applications, after remediation, to provide
                             independent assurance that they were Y2K compliant. To accomplish
                             this objective, the PMO appointed a PIV Coordinator and hired
                             contractors to conduct PIV tests under the direction of the PMO.

Management                   The PMO has invested considerable effort in making the PIV process
Accomplishments              successful. A few of the accomplishments include: developing
                             standard USPS PIV procedures and processes; hiring three contractors
                             to help perform PIV; and verifying Y2K compliance of 16 converted
                             application systems. In addition, the PIV Coordinator is constantly
                             revising the PIV procedures to meet the dynamics of the USPS
                             systems environment.

Objective, Scope, 	          Our overall objective was to determine whether the PIV process was
and Methodology              effective and efficient. Specifically, we wanted to determine if the
                             PIV process was timely and provided reasonable assurance that
                             application systems that had been remediated were Y2K compliant.

                             At the request of the PMO, we reviewed the PIV process used to

                                                      3
                                           Restricted Information
Year 2000 Initiative – Post Implementation Verification                        IS-AR-98-003


                             independently verify Y2K compliance of USPS application systems.
                             In accessing the PIV process, we looked at applications submitted for
                             PIV during June and July 1998.

                             We reviewed numerous documents, including USPS PIV procedures,
                             system inventories, test plans, and schedules. We also analyzed
                             internal tracking reports developed by the PMO to monitor the
                             progress of Y2K activities.

                             We also discussed USPS Y2K activities related to this report with
                             officials in various headquarters offices, including the Y2K Project
                             Manager and leaders, PIV Coordinator, and contracted PIV personnel.
                             Our audit work was accomplished during the period June through
                             August 1998. This review was conducted in accordance with
                             generally accepted government auditing standards and included such
                             tests of internal controls as we considered necessary under the
                             circumstances.

Prior Audit                  This is the third in a series of OIG reports regarding the Y2K
Coverage                     initiative. Our first report was "Year 2000 Initiative" (IS-AR-98-001,
                             March 31, 1998). During this review, we examined the awareness and
                             assessment phases of the USPS Y2K initiative and made
                             recommendations for improvement in several areas including
                             assigning accountability to responsible managers. USPS Management
                             concurred fully with our findings and recommendations.

                             Our second report was "Year 2000: Status of the Renovation,
                             Validation, and Implementation Phases" (IS-AR-98-002, July 21,
                             1998). This report involved a preliminary assessment of the
                             renovation, validation and implementation phases of the USPS Y2K
                             initiative. It contained recommendations for improvement in several
                             areas including accurately reporting the compliance status of
                             application systems. USPS Management concurred fully with our
                             findings and recommendations.

                             No prior audits were conducted by the Inspection Service or the
                             General Accounting Office regarding specific USPS Y2K initiatives.




                                                     4
                                          Restricted Information
Year 2000 Initiative – Post Implementation Verification                                   IS-AR-98-003


                                Post Implementation Verification
Results
Background                    The PIV process, instituted by the PMO, is an independent
                              verification of the Y2K remediation2 process to ensure that USPS
                              systems applications are Y2K compliant and will operate correctly in
                              the year 2000 and beyond. The PMO is responsible for the oversight
                              of the contractors performing PIV. A description of how the PIV
                              process fits into USPS Y2K Initiative follows.

                              Remediation of systems applications for Y2K compliance primarily
                              rests with USPS business managers and project leaders. The
                              application project leaders are responsible for certifying that all
                              application code has been reviewed for date implications, remediated,
                              tested, and documented accordingly. The Portfolio Manager certifies
                              the application as Y2K compliant and places it into production. The
                              certification is sent to the PMO who initiates the PIV process.

                              The PMO PIV Coordinator selects the applications to send to the PIV
                              contractor based on the application’s criticality and estimated failure
                              date. Next, the PIV testing group requests the USPS project leader to
                              submit all application documentation, source code, test plans, and
                              Y2K compliance testing documentation.3 The PIV group reviews
                              testing documentation and utilizes an automated tool to identify lines
                              of source code for date-related items to be reviewed. The PIV group
                              then performs a 100 percent manual review of all code for any
                              date-related items the automated tool may have missed. Finally, PIV
                              personnel visit the office where the application is run and observe
                              Y2K tests performed by the project leader.

                              Table 1, Status of USPS Application Systems Undergoing PIV,
                              provides the total number of USPS systems applications and the status
                              of the systems in the various stages of the PIV process as of July 24,
                              1998. The table indicates that only about 12.5 percent of severe and
                              critical applications had been nominated for PIV as of this date. The
                              timeliness of applications being nominated4 for PIV will be reviewed
                              in more depth and addressed in a follow-up report.




2
  A process whereby USPS systems applications are corrected in order to make them Y2K compliant. 

3
  The PIV process has been delayed by inaccurate or incomplete source code and documentation.

4
  The PIV coordinator nominates systems applications by choosing which applications to send to the PIV contractor 

  based on the application's criticality and estimated failure date.

                                                        5
                                             Restricted Information
Year 2000 Initiative – Post Implementation Verification                                     IS-AR-98-003




                  Status of USPS Application Systems Undergoing PIV
                                              as of July 24, 1998

     Application           Application          Nominated For           In PIV Process         Verified By PIV
    Classification5         Systems                 PIV                                         As Compliant
     Severe and               166                    21                         14                    5
       Critical
     Applications
     Non-Critical               464                     44                      35                    11
     Applications
    Total Systems               630                     65                      49                    16

PIV Effectiveness              The PIV process provided reasonable assurance that applications
and Efficiency                 completing PIV were Y2K compliant. For example, during the pilot
                               PIV process, the PIV team found that 9 of 15 systems reviewed were
                               non-compliant. Since the formal PIV started in February 1998, all
                               applications reviewed have been verified compliant.

                               However, in our view, the PIV process was not as efficient as it could
                               have been and changes need to be made quickly. For example, the
                               PIV team was only verifying an average of four applications per
                               month during the period January through July 1998. In addition to the
                               full code review, applications were submitted without documentation
                               or test plan descriptions. Furthermore, project leaders and portfolio
                               managers have been reluctant to send their applications to PIV, stating
                               the PIV process is too time-consuming. The challenges facing the PIV
                               process are discussed below.

Incomplete 
                   Portfolio managers certified and submitted applications to PIV without
Submissions 
                  complete documentation. For example, USPS PIV procedures require
                               the submission of test plans at the time the application is submitted for
                               PIV. However, PIV team personnel stated that they had not received
                               complete test plans with any application submitted for PIV to date.
                               Test plans are necessary to focus on the remediated parts of an
                               application and also help determine where to focus source code
                               reviews. The PIV team has been informally helping project leaders
                               and Portfolio Managers develop test plans in order to complete PIV.
                               Helping develop test plans diverts assigned PIV resources and slows
                               down the PIV process.




5
 All severe and critical application systems are required to go through the PIV process whereas the
non-critical systems are “subject” to PIV at the discretion of the PMO.

                                                        6
                                             Restricted Information
Year 2000 Initiative – Post Implementation Verification                                   IS-AR-98-003




Applications Not 
 Applications were not submitted for PIV as soon as they were
Submitted Timely 
 remediated and certified. For example, prior to July 1998, all the
                                Information Business System Support Centers (IBSSC) combined only
                                submitted 10 of their 330 applications for PIV. The Minneapolis
                                IBSSC did not submit any of its 120 applications. Planning for the use
                                of PIV resources is more difficult when applications are not submitted
                                in a timely manner or are held and submitted in large groups.

100 Percent Code                At the time of our audit, the PIV team was reviewing 100 percent of
Review                          the source code for all applications received. According to the PMO,
                                it was not its original intention to do complete code reviews. This
                                practice evolved as a means of coping with the applications submitted
                                during the pilot PIV. The applications lacked documentation and
                                contained a great deal of unremediated code. By contrast, the PIV
                                team indicated that when the formal PIV process started, they found
                                that most code had been remediated. However, documentation and
                                test plans were still missing, thus necessitating continuation of the 100
                                percent code review. According to the PIV team, the average team
                                member spends about 5 hours to review 1,000 lines of code. The
                                USPS has 166 severe and critical application systems that contain as
                                much as 100 million lines of code6. Under the current PIV process,
                                the only way the severe and critical code could be reviewed before the
                                year 2000 would be if at least 33 individuals reviewed code every
                                minute of every day, including weekends, until December 31, 1999.

                                PMO personnel stated that the PIV process was designed to serve as a
                                quality assurance (QA) review to help ensure the proper remediation
                                of applications. A sound method of quality assurance starts with
                                establishment of objectives and standards. In this case the objective is
                                for USPS application systems to be Y2K compliant. Management has
                                defined what it means for an application to be Y2K compliant. The
                                next step of QA involves developing and implementing procedures to
                                provide management with reasonable assurance that objectives and
                                standards were met (is the application Y2K compliant?). Reasonable
                                assurance does not imply absolute assurance and should be achieved
                                by expending the least amount of resources. A QA function, by
                                definition, involves an agreed upon, limited review or sampling of
                                items or, in this case, lines of code, to spot check the quality of results
                                involved to make an application Y2K compliant. Current procedures
                                entail expending nearly as much effort as the remediation process
                                itself. This is an inefficient use of staff, time-consuming, costly, and
                                provides no guarantees that all unremediated code will be identified.


6
    The 100 million lines of code was based on the Rough Order Of Magnitude Study dated June 1998.

                                                         7
                                              Restricted Information
Year 2000 Initiative – Post Implementation Verification	                         IS-AR-98-003


                             We commend the PIV coordinator and contractor for establishing a
                             high assurance level for reviewing remediated code. However, the
                             current PIV process is so time-consuming that all severe and critical
                             applications may not be verified before the Year 2000. Therefore, we
                             believe a more efficient PIV approach involving the use of a well-
                             designed statistical sampling plan could be followed with little loss to
                             the current assurance level. See Appendix I for a statistical sampling
                             plan that may be used on this project.

Recommendations	 The Vice President, Information Systems should direct
                             Portfolio Managers to:

                             1. 	 Certify and submit applications within 30 days of being
                                  remediated and tested.

                             2. 	 Ensure applications include all required documentation before
                                  being certified.

                             3. 	 Direct contractors to (a) help USPS remediation teams develop
                                  adequate Y2K test plans and remediation documentation and (b)
                                  assist in the correction of applications sent back from PIV.

                             The Vice President, Information Systems should also direct
                             the PMO to:

                             4. 	 Reject application systems that are submitted without complete
                                  Y2K test plans and documentation and formally notify the
                                  responsible Vice President and CIO that the application was
                                  rejected.

                             5. 	   Develop and implement a statistical sampling plan for reviewing
                                    application code as soon as test plans and documentation become
                                    more acceptable.




                                                      8
                                           Restricted Information
Year 2000 Initiative – Post Implementation Verification                       IS-AR-98-003


                                    PIV Code Sampling Plan
                                          Example
This statistical sampling plan described below was designed for us by an experienced statistician
and is an example that management could apply to help expedite the PIV process. If
implemented, this sampling plan would replace the PIV 100 percent code inspection practice.
Neither of these processes, i.e., 100 percent code inspection nor the sampling technique, will
guarantee that all applications reviewed are completely Y2K compliant, but the statistical
approach would reduce the amount of time necessary to complete an application review.

PIV team members told us that the number of errors found while reviewing code was low.
Therefore, this sampling plan uses a low error rate (.04). An error is defined as an unremediated
or incorrectly remediated date-dependent item that may cause the application to fail in the year
2000 or beyond. Table 1, PIV Statistical Sampling Parameters, shows by category of system the
target parameters at 95 percent or higher confidence level with a plus/minus 1 percent precision,
and the estimated maximum sample size.

To apply this plan, one would follow the existing procedures to the point of identifying
date-related items using the automated tool. Next, PIV team members would calculate the
number of date-related lines of code identified by the tool and the number of lines not
date-related, i.e., the remainder. Using the table below, the PIV team would separately sample
both universes of code. They would examine only those lines of code that appeared in each
sample, starting with the date-related sample first. If an error is found, the application system
containing the error should be returned to its project leader for additional rework. This plan
assumes that a 100 percent code inspection will be performed for those systems containing 2,500
lines or less. During code reviews of non-critical applications, the PIV team would only review
the date-related sample.

                            Table 1: PIV Statistical Sampling Parameters

Category of System Confidence Level       Precision                Maximum Sample Size*
============== ============== =========                            ====================
Severe              99 percent            .01                      2,500 lines of code
Critical            99 percent            .01                      2,500 lines of code
Non-Critical        95 percent            .01                      1,500 lines of code
* Maximum sample size assumes a 4 percent error rate.

Calculate the sample size using the following formula: n=(z/b)2 times (pq)

The terms of the formula are defined as follows: n = sample size
z = confidence coefficient for desired confidence level (z = 2.58 for 99 percent confidence) and
(z = 1.96 for 95 percent confidence).
b = precision desired
p = error rate expected
q = 1 minus the error rate = rate of non-error


                                                     9                        APPENDIX I
                                          Restricted Information
Year 2000 Initiative – Post Implementation Verification            IS-AR-98-003


                                MANAGEMENT COMMENTS




                                                   10                    APPENDIX II
                                          Restricted Information
Year 2000 Initiative – Post Implementation Verification            IS-AR-98-003




                                                   11                    APPENDIX II
                                          Restricted Information
Year 2000 Initiative – Post Implementation Verification            IS-AR-98-003




        Major Contributors to this report were:




                                                   12                    APPENDIX II
                                          Restricted Information
